c>

•-4I

Appellate Case: 21-1047

Document: 010110530760

Date Filed: 06/03/2021

Page: 1

UNITED STATES COURT OF APPEALS

FILED
United States Court of Appeals
Tenth Circuit

FOR THE TENTH CIRCUIT

June 3, 2021
Christopher M. Wolpert
Clerk of Court

BRITTANY CROWNHART,

/y'

Plaintiff - Appellant,
<

v.

ANNE MAGILL COLLINS,

No. 21-1047
(D.C. No. 1:20-CV-03670-LTB)
(D. Colo.)

Defendant - Appellee.
\

ORDER AND JUDGMENT*
Before MORITZ, BALDOCK, and EID, Circuit Judges.
Brittany Crownhart filed a pro se action against a nurse who allegedly
included false and/or private information on her hospital discharge paperwork,
claiming that this violated her rights under the Fourth Amendment and the Health
Insurance Portability and Accountability Act (HIPAA) of 1996, Pub. L. 104-191, 110
Stat. 1936 (codified as amended in scattered sections of 42 U.S.C.). Although
Crownhart was not a prisoner and sought only monetary damages for relief, she

■fAfter examining the briefs and appellate record, this panel has determined
unanimously that oral argument would not materially assist in the determination of
this appeal. See Fed. R. App. P. 34(a)(2); 10th Cir. R. 34.1(G). The case is therefore
submitted without oral argument. This order and judgment is not binding precedent,
except under the doctrines of law of the case, res judicata, and,collateral estoppel.
But it may be cited for its persuasive value. See Fed. R. App. P. 32.1(a) and
10th Cir. R. 32.1(A).

Appellate Case: 21-1047

Document: 010110530760

Date Filed: 06/03/2021

Page: 2

purported to file this action as a habeas petition under 28 U.S.C. § 2241, which
permits a person in custody to challenge a conviction or sentence. And she paid only
the $5 filing fee for habeas petitions rather than the higher filing fee required for nonhabeas civil actions. See 28 U.S.C. § 1914(a).
A magistrate judge concluded that Crownharf s filings were deficient because

I

she had not used the proper form for her complaint, which sounded in malpractice
rather than habeas, and she had neither paid the required filing fee for non-habeas
actions nor applied to proceed without prepayment of fees.1 Based on these
deficiencies, the magistrate judge ordered Crownhart to “obtain and use the courtapproved Complaint form, and either pay the $402 filing fee in full or file an
Application to Proceed in District Court Without Prepaying Fees or Costs.” R. 15.
The magistrate judge provided her with contact information for a pro se clinic that
might be able to assist her in this matter. And the magistrate judge warned her that
the action would be dismissed without prejudice—and without further notice—if she
did not cure the deficiencies within 30 days.
Over the next five weeks, Crownhart submitted various nonresponsive filings,
such as a request for the hospital to be notified of the lawsuit. But she neither filed a
complaint on the court-approved form nor addressed the filing-fee issue.

1 The magistrate judge also observed that Crownharf s husband had been
permanently enjoined from filing pro se actions without leave of the court and that
the handwriting on the pleadings in this case appeared to be Crownharf s husband’s
handwriting. “Given these circumstances,” the magistrate judge warned Crownhart of
her need to comply with Rule 11 of the Federal Rules of Civil Procedure in
submitting any filings to the court. R. 15.
2

i

f \fc

Appellate Case: 21-1047

Document: 010110530760

Date Filed: 06/03/2021

Page: 4

Crownhart has not shown that the district court exceeded the bounds of
permissible choice by dismissing this action. The magistrate judge informed her of
the specific deficiencies in her pleadings, told her how to cure these deficiencies,
warned her that the action would be dismissed if she did not cure the deficiencies
within 30 days, and referred her to a resource for potential assistance. The nature and
alleged merits of her claims did not excuse her from compliance. But she neither
challenged the magistrate judge’s order nor attempted to comply with it. Under these
circumstances, the district court did not abuse its discretion by dismissing the action
without prejudice. Cf. Florence v. Decker, 153 F. App’x 478, 480 (10th Cir. 2005)
(unpublished) (holding that district court did not abuse discretion in dismissing civil
action without prejudice for failure to pay filing fees because plaintiff “ha[d] not
shown that he was unable to comply with the court’s order”; noting that “dismissal
without prejudice is not an extreme sanction because the remedy is simply to cure the
defect and refile the complaint”).
We therefore affirm the district court’s dismissal of the action without
prejudice. And we deny Crownhart’s motion to proceed in forma pauperis on appeal
because she has not asserted “a reasoned, nonfrivolous argument” in support of her
. position. Lister v. Dep’t of Treasury, 408 F.3d 1309, 1312 (10th Cir. 2005).
Entered for the Court

Nancy L. Moritz
Circuit Judge

4

Case l:20-cv-03670-LTB Document 10 Filed 01/27/21 USDC Colorado Page lot 2

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Civil Action No. 20-cv-03670-GPG
BRITTANY CROWN HART,
Plaintiff,
v.
ANNE MAGILL COLLINS,
Defendant.
ORDER OF DISMISSAL
Plaintiff Brittany Crownhart is a resident of Grand Junction, Colorado. On
December 15, 2020, she filed pro se an Application for a Writ of Habeas Corpus
Pursuant to 28 U.S.C. § 2241, although she is not a prisoner, and paid a $5.00 filing
fee. (ECFNo. 1).
The instant action was commenced, and on December 16, 2020, Magistrate
Judge Gordon P. Gallagher ordered Plaintiff to cure certain deficiencies if she wishes to
pursue any claims. (ECF No. 4). Specifically, Plaintiff was ordered file a Complaint on
the court-approved form and either pay the applicable $402 filing fee in full or file an
Application to Proceed in District Court Without Prepaying Fees or Costs (Long Form)
on the court-approved form. Plaintiff was warned that the action would be dismissed
without further notice if she failed to cure all of the deficiencies within thirty days.
On January 11,2021, Plaintiff filed a Response to Motion for Notice of Lawsuit
Pursuant to HIPPA (ECF No. 5), a Notice to File a Class Action Lawsuit (ECF No. 7)
l

Case l:20-cv-03670-LTB Document 10 Filed 01/27/21 USDC Colorado Page 2 of 2

and a Motion to Respond to Cure Deficiencies (ECF No. 8). On January 22, 2021, she
filed a Motion to File Additional Brief. (ECF No. 9). Plaintiff did not file a Complaint or
address the filing fee.
Plaintiff has failed to cure the deficiencies identified in Magistrate Judge
Gallagher’s December 16 order to cure within the time allowed. Therefore, the action
will be dismissed without prejudice for failure to cure deficiencies.
Furthermore, the Court certifies pursuant to 28 U.S.C. § 1915(a)(3) that any
appeal from this order would not be taken in good faith and therefore in forma pauperis
status will be denied for the purpose of appeal. See Coppedge v. United States, 369
U.S. 438 (1962). If Plaintiff files a notice of appeal she also must pay the full $505
appellate filing fee or file a motion to proceed in forma pauperis in the United States
Court of Appeals for the Tenth Circuit within thirty days in accordance with Fed. R. App.
P. 24. Accordingly, it is
ORDERED that this action is dismissed without prejudice pursuant to Rule 41(b)
of the Federal Rules of Civil Procedure for failure to cure deficiencies. It is
FURTHER ORDERED that leave to proceed in forma pauperis on appeal is
denied without prejudice to the filing of a motion seeking leave to proceed in forma
pauperis on appeal in the United States Court of Appeals for the Tenth Circuit. It is
FURTHER ORDERED that all pending motions are denied as moot.
DATED at Denver, Colorado, this 27th day of

January

, 2021.

BY THE COURT:
s/Lewis T. Babcock
LEWIS T. BABCOCK, Senior Judge
United States District Court
2

Case l:20-cv-03670-LTB Document 11 Filed 01/27/21 USDC Colorado Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Civil Action No. 20-cv-03670-LTB
BRITTANY CROWNHART,
Plaintiff,
v.
ANNE MAGILL COLLINS
Defendant.
JUDGMENT
Pursuant to and in accordance with the Order of Dismissal entered by Lewis T.
Babcock, Senior District Judge, on January 27, 2021, it is hereby
ORDERED that Judgment is entered in favor of Defendant and against Plaintiff.
DATED at Denver, Colorado, this 27th day of January, 2021.
FOR THE COURT,
JEFFREY P. COLWELL, Clerk

By: s/ S. Phillips,
Deputy Clerk

UNITED STATES COURT OF APPEALS

FILED
United States Court of Appeals
Tenth Circuit

FOR THE TENTH CIRCUIT

June 10, 2021
Christopher M. Wolpert
Clerk of Court

BRITTANY CROWNHART,
Plaintiff - Appellant,

No. 21-1047
(D.C.No. 1:20-CV-03670-LTB)
(D. Colo.)

v.

ANNE MAGILL COLLINS,
Defendant - Appellee.
ORDER

Before MORITZ, BALDOCK, and EID, Circuit Judges.
Appellant’s petition for rehearing is denied.
Entered for the Court

CHRISTOPHER M. WOLPERT, Clerk

RECEIVED
JUL 2 - 2021

